<html>
<title> - ESTABLISHING ACCOUNTABILITY AT THE WORLD INTELLECTUAL PROPERTY ORGANIZATION: ILLICIT TECHNOLOGY TRANSFERS, WHISTLEBLOWING, AND REFORM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
         ESTABLISHING ACCOUNTABILITY AT THE WORLD INTELLECTUAL
               PROPERTY ORGANIZATION: ILLICIT TECHNOLOGY
                 TRANSFERS, WHISTLEBLOWING, AND REFORM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                  THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2016

                               __________

                           Serial No. 114-199

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 98-830PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                                  
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. James Pooley, attorney at law (former Deputy Director for 
  Innovation and Technology, World Intellectual Property 
  Organization)..................................................     8
Ms. Miranda Brown (former Strategic Adviser to the Director 
  General, World Intellectual Property Organization).............    23
Mr. Matthew Parish, founder and managing director, Gentium Law 
  Group..........................................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. James Pooley: Prepared statement.............................    11
Ms. Miranda Brown: Prepared statement............................    27
Mr. Matthew Parish: Prepared statement...........................    41

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: House Committee Foreign Affairs 
  letters regarding the World Intellectual Property Organization.    64
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Prepared statement of the Government Accountability Project....    71
  Letter from the World Intellectual Property Organization to the 
    Honorable Edward R. Royce, a Representative in Congress from 
    the State of California, and chairman, Committee on Foreign 
    Affairs......................................................    77
  Letter from Gentium Law to His Excellency Gabriel Duque, 
    Ambassador and Permanent Representative, Permanent Mission of 
    Colombia.....................................................    82
Mr. James Pooley: Memo from Mr. Pooley to Mr. Francis Gurry......    85
                ESTABLISHING ACCOUNTABILITY AT THE WORLD

              INTELLECTUAL PROPERTY ORGANIZATION: ILLICIT

            TECHNOLOGY TRANSFERS, WHISTLEBLOWING, AND REFORM

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

         Subcommittee on the Middle East and North Africa, and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:03 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The hearing of the three subcommittees will come 
to order. And thank you all for being here.
    Our hearing today shines a spotlight on an organization 
that is a critical component of a global system of intellectual 
property and patent protection, the World Intellectual Property 
Organization or WIPO. It is an organization that, 
unfortunately, appears to have lost its way under its current 
Director General Francis Gurry, and is in need of major reform.
    We will hear from very courageous whistleblowers today who 
will relate how they uncovered illicit transfers of technology 
to rogue nations such as North Korea, and to friendly nations 
like Japan, and how WIPO, under Director General Gurry, 
unbeknownst to member states, cuts deals with China and Russia 
to open offices in those countries, potentially putting our 
intellectual property at risk.
    This hearing is thus about national security as much as the 
importance of sound governance and oversight. China, for 
example, has notoriously a bad record on protecting 
intellectual property rights, and WIPO ought to be part of the 
solution. Parenthetically, you may know that I serve as 
chairman of the Congressional-Executive Commission on China. 
Senator Marco Rubio is co-chairman. Ominously, the Commission's 
latest annual report, released last October, concluded that 
human rights violations have significantly worsened and were 
broader in scope than at any other time since the Commission 
was established in 2002.
    Last week I traveled to China on a mission to promote human 
rights, the rule of law, including intellectual property 
rights, and democracy. In China I met and argued with 
government leaders and had the privilege of delivering a 
keynote address at NYU-Shanghai. As I think many of us have 
come belatedly to understand, hopes in the 1990s that China 
would eventual and inevitably matriculate from dictatorship to 
a democracy hasn't even come close to materializing.
    The Commission pointed out that U.S. companies face 
significant difficulties related to intellectual property 
rights in China. And, of course, China is not the only place 
where these problems exist and persist.
    Two of our witnesses, Jim Pooley and Miranda Brown, will 
recount what they saw at WIPO and what happened when they 
sought to bring to light what they saw. It is not a pretty 
story but it is one I will leave to them to explain in their 
own words. It is the personal aspect of governing from 
oversight that we all want to emphasize because it is at the 
heart of the story we will hear revealed in this afternoon's 
hearing, a human drama about brave individuals who, at great 
personal cost to themselves and their country, saw wrongdoing 
and decided to do something about it.
    Today's hearing is timely as well as topical, as there has 
been an internal investigation of WIPO by the U.N.'s Office of 
Internal Oversight Services into the allegations of wrongdoing. 
The results of this investigation are currently before the 
chairman of WIPO's General Assembly. This is a General Assembly 
of member states, including the United States, based in Geneva. 
It is incumbent upon the General Assembly Chairman Gabriel 
Duque of Colombia that he act upon this report and share it 
with member states and make it publicly available.
    We also call upon our own State Department to follow up on 
this and to be persistent in pushing full reform, transparency, 
and accountability at WIPO.
    I would point out that this is the first in a series of 
hearings. And our next witnesses we hope will be the State 
Department.
    Today's hearing will have reverberations beyond WIPO, for 
there appears to be a culture of corruption at many 
international organizations, not only at WIPO. We hear 
revelations, for example, about FIFA and world soccer and how 
the serpent of corruption wriggles its way even into the world 
of sports, undermining the nobility of athletic competition. We 
hear of the sexual exploitation of minors occurring in U.N. 
peacekeeping missions.
    I would note, parenthetically, I have chaired three 
hearings on that issue and traveled to D.R. Congo to 
investigate personally this issue of peacekeepers raping little 
girls and boys and then being not part of the protection force.
    This hearing is the first in what will be a series of 
hearings that this Congress will hold to focus on the need for 
reform at the U.N. and its institutions. And the next will be 
with the State Department, we hope, and on U.N. peacekeepers 
and the issue of exploitation and abuse.
    We do believe that by shining a light we can help victims 
and help the corruption come to an end, bringing healing and 
true reform. Organizations such as WIPO are too important to be 
abandoned. It is essential that we conduct vigorous oversight 
and demand accountability to help refocus this organization on 
fulfilling its vital mission.
    Finally, I would like to thank the other chairs for joining 
this hearing. This is a group effort, three subcommittees. 
Frankly, it is unprecedented to have three subcommittees; 
sometimes two, but not three. Our distinguished Chairwoman Ros-
Lehtinen, Chairman Salmon, of course our ranking members, Ms. 
Bass, Mr. Deutch, and Mr. Sherman. This is an important hearing 
and we look forward to our distinguished witnesses.
    I would like to now yield to Ms. Bass for any opening 
comments.
    Ms. Bass. Thank you, Mr. Chairman. I would like to welcome 
the witnesses to this joint hearing, and note that I look 
forward to hearing from each of you.
    I would also like to underscore my support for 
whistleblower protections. Let me say that intellectual 
property rights are important, not only to my constituency in 
Los Angeles in the State of California, but the country as a 
whole. Intellectual property rights are legal, private, 
enforceable rights that governments grant to inventors and 
artists. Intellectual property is and of itself essential to 
the growth and vitality of our economy and the sustainability 
of our competitive edge worldwide. The role played by WIPO is, 
therefore, also critically important.
    I would also like to note that intellectual property is 
increasingly important to the continent of Africa. Last year in 
Senegal the Africa Union organized a conference on intellectual 
property in coordination with WIPO, the Government of Senegal, 
the Government of Japan, and African Union member states. 
Building on earlier AU conferences on the topic, the Conference 
on Intellectual Property for an Emerging Africa emphasized the 
strategic use of intellectual property in achieving the goals 
of the AU's strategic agenda for 2063. This is a critical step 
in the right direction for the continent and, frankly, for the 
United States.
    I can definitely speak to the importance of intellectual 
property issues to my district in Los Angeles, which is home to 
Sony and Fox and hundreds of other studios and entertainment 
industry-related businesses. In Nigeria, Nollywood, the highly 
acclaimed movie industry, is a source of major revenue. This 
revenue can be doubled and tripled as jobs and apprenticeships 
are created and maintained. This is a burgeoning industry that 
can even be more effective with a greater focus on intellectual 
property rights.
    The same can also be said for the movie, music, and 
television industries in South Africa, Kenya, Ghana, and many 
other venues. Not only is there potential opportunity for 
cooperation and collaboration regionally, but internationally 
with and, for example, of course the United States. This is why 
the effective operation of WIPO remains so important both 
domestically and internationally.
    And in our subcommittee, Africa is one of the main issues 
that is covered. So when the chairman mentioned that there will 
be future hearings, I look forward to focusing on the 
continent. Thank you.
    Mr. Smith. Thank you, Ranking Member Bass.
    It is now a distinct privilege to recognize the chairwoman 
emeritus of the full committee and now chairwoman of the Middle 
East and North Africa Subcommittee, Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Smith and 
Chairman Salmon, as well as the ranking members Ms. Bass and 
Mr. Sherman for bringing to our subcommittees this important 
hearing. And a special thank you to our esteemed witnesses.
    Mr. Pooley and Dr. Brown are two brave whistleblowers who 
have sacrificed much in their personal and professional lives 
in order to shed light on the misconduct of the World 
Intellectual Property Organization (WIPO) and its Director 
General. I am grateful to you both for being here to finally 
give your testimony today. This has been a long time coming.
    And I also want to thank Mr. Parish for being here to 
represent the views of the WIPO Staff Council. It is about time 
that all your voices and the truth are heard.
    When I first began investigating WIPO's illegal transfers 
of technology to Iran and North Korea almost 4 years ago, our 
committee could not have known to the extent that the WIPO's 
misconduct took. We were just scratching the surface. We also 
could not have known to what length the Director General Gurry 
would go to silence his critics.
    Upon learning in 2012 that WIPO was secretly transferring 
high tech U.S.-origin computers, programs and equipment to Iran 
and North Korea, technology with clear dual-use benefits to 
those regimes, I wrote to then Secretary of State Hillary 
Clinton raising concern about these violations. In my letter I 
informed the Secretary that the committee was opening an 
investigation into the matter and I requested that the 
administration freeze all U.S. contributions to WIPO until we 
were given complete and unfettered access to relevant documents 
and witnesses without fear of retribution or retaliation until 
the committee and the State Department both finished their 
investigations, and until all those responsible at WIPO were 
held accountable.
    These illegal transfers violated WIPO rules and which 
require prior disclosure to member states before authorization. 
If known ahead of time, WIPO member states and, undoubtedly, 
U.S. representatives to the organization would have objected 
due to national security concerns. Even worse, these transfers 
violated both U.S. sanctions and U.N. Security Council 
resolutions, laws designed to prevent the regimes in Tehran and 
Pyongyang from getting their hands on dual-use technologies.
    A few days later, after some preliminary fact finding and 
inquiries with WIPO staff, the committee's ranking member at 
the time, Congressman Howard Berman of California, and I sent 
multiple letters to the Director General himself and followed 
up with his office and through the State Department. We were 
appalled at Gurry's lack of accountability and transparency and 
his lack of judgment at attempts at keeping these illegal 
transfers secret, and the lack of any kind of consultation with 
the Security Council, and his failure to properly control 
sensitive dual-use technology. Absolutely appalling.
    We were outraged by Gurry's disgusting intimidation and 
retaliation against whistleblowers. And because WIPO depends on 
patent application fees, of which more come from the U.S. than 
any other country, we were also disturbed that WIPO was 
effectively using fees paid by U.S. inventors to fund a secret 
and illegal transfers to Iran and North Korea.
    We strongly urged Gurry to change course, to uphold his 
commitments as an official of an international organization, to 
commission an independent external investigation into the 
matter, and to provide WIPO stakeholders with access to all 
documents and witnesses while fully protecting whistleblowers.
    During this process Congressman Berman and I invited three 
of the whistleblowers, two of whom are with us today, to 
testify before our committee, only to be denied permission by 
Mr. Gurry through his legal counsel. Their names were then 
leaked to the press, further underscoring the Director 
General's intimidation tactics, his imperious management of 
WIPO employees, and his outright manipulation of the 
investigations. Day after day, month after month Mr. Gurry 
failed to provide access to key documents, denied interviews 
with key witnesses, and even sought to interfere with the State 
Department's cooperation with our committee.
    In the years following we learned even more about Gurry's 
misconduct, including secret agreements to Gurry's efforts to 
open satellite offices in China and Russia, two of the world's 
most notorious cyber criminals and thieves of intellectual 
property.
    Last year Chairman Smith and I sent our staff to Geneva to 
meet with Dr. Brown and WIPO officials, and they discussed 
these new offices in more detail. Hosting WIPO offices in these 
countries poses an enormous security risk for the confidential 
and proprietary information included in patent applications, 
and further damages the credibility of WIPO, whose mission is 
supposed to be about protecting intellectual property, not 
destroying it.
    We learned from our witnesses about Gurry's potential vote 
buying and nepotism, about his proposal for a WIPO satellite 
office in Iran, about his involvement in the theft of WIPO 
employees' personal items to extract their DNA, and about his 
retaliation against Mr. Pooley and Dr. Brown, as well as the 
eventual firing of Mr. Moncef Kateb, the former president of 
the WIPO Staff Council.
    But despite multiple letters that other members and I sent 
to Secretary Kerry expressing our dismay and concern about 
Gurry's potential reelection as Director General, the State 
Department did nada, zilch, zip, nothing to block it, and he 
was reelected to another 6-year term in 2014.
    The State Department finally woke up to Gurry's repulsive 
behavior last year when it decided to withhold a portion of 
U.S. contributions to WIPO for its violation of U.S. 
whistleblower protections. But that is not nearly enough to 
demonstrate a commitment to the whistleblowers and the 
dedicated public servants who believe in the mission of the 
United Nations agencies at which they work but are paralyzed by 
corrupt officials that run them. And it is not nearly enough to 
deter the Director General and others like him in the broken 
U.N. system from continuing to engage in disgraceful and 
dangerous behavior.
    I know that our witnesses have some excellent 
recommendations for both Congress and the State Department on 
reforming WIPO and the entire U.N. I look forward to hearing 
from them and discussing how we can not only make these U.N. 
agencies more transparent and accountable, but ensure that they 
are protecting their employees and working toward the mission 
for which they are funded.
    And with that, Mr. Chairman, I would like to ask for 
unanimous consent to insert into the record the letters that we 
have written from this committee sent on this important matter. 
I would also like to thank our former Ranking Member Howard 
Berman for his leadership on this issue, as well as the 
committee staff who led the effort into the initial 
investigation, Dr. Yleem Poblete, our former staff director of 
the committee, Harold Rees, the former chief investigator of 
the committee, and Shana Winters, counsel for Mr. Berman.
    Thank you, Mr. Chairman.
    Mr. Smith. Without objection, so ordered.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Smith. Thank you, Chairwoman Ileana Ros-Lehtinen for 
not just the powerful statement but for all of the herculean 
efforts of yours to date. And we have got to get success on 
this. And again, our next hearing will be with the State 
Department.
    I would like to yield to Ranking Member Brad Sherman.
    Mr. Sherman. Thank you. And I want to associate myself with 
the gentlelady from California describing the importance of 
intellectual property, not only in the United States but to 
Africa and around the world. I am pleased to see that the 
employees of this organization have a union. If I had to pick 
an organization where employees needed a union to protect them, 
this would be it.
    And if I had to pick somebody who at least ought to be 
paying his own parking tickets, it would be Francis Gurry.
    This is an important international organization. We need to 
safeguard intellectual property worldwide. We have got limited 
leverage on WIPO because they get the vast majority of their 
money from fees. And we are withholding 15 percent of our 
contribution, but we are talking about roughly the same amount 
a Member of Congress gets paid every year.
    The technology transfer I look forward to finding out just 
how critical it is. It is my understanding that what was 
transferred is available on Amazon. But that doesn't mean that 
it is entirely easy for Iran or North Korea to get their hands 
on it. And I believe in a broken-window approach to law 
enforcement we have got, we ought to do everything we can to 
enforce even the modest violations of sanctions.
    This is not a well-run agency. It is not a good governance 
system. I look forward to improving it. And I look forward I 
hope, also, to seeing it do good work to protect the 
intellectual property for which Karen's district and mine is 
famous. And with that I yield back.
    Mr. Smith. Thank you very much, Mr. Sherman.
    I would like to now yield to the chairman of the 
Subcommittee on Asia and the Pacific, Matt Salmon, for any 
comments.
    Mr. Salmon. Thank you, Mr. Chairman. I would like to 
express my thanks to both you and Chairman Ros-Lehtinen for 
holding this hearing with the Asia and Pacific Subcommittee. I 
know that the Committee on Foreign Affairs has taken the lead 
on this issue over the past several years.
    We are here today to investigate concerns about the World 
Intellectual Property Organization, or WIPO, its history of 
transferring technology to rogue regimes like North Korea and 
Iran, and its whistleblower protection policies. Today we seek 
to unravel the events from the perspective of our insider 
witnesses, determine the implications of technology transfers 
to North Korea, and assess whether congressional action is 
necessary to prevent this from happening again. I suspect that 
it probably is.
    In 2012 WIPO, a U.N. agency created in part to foster 
innovation and promote the protection of intellectual property 
throughout the world, sent very capable hardware, firewall and 
network security appliances to North Korea without proper 
consultation with U.N. sanctions committees. This meant 
violating multiple U.N. security resolutions on North Korea. 
Furthermore, the tech transfer provided the regime with 
technology that North Korea could not have purchased on its 
own, due to U.S. domestic restrictions.
    Worse, it was not the first time. An independent external 
review report found that the history of deliveries of 
information technology hardware and software to North Korea 
dated back to at least the year 2000. Since 2006, the report 
continues, WIPO has provided North Korea with three deliveries, 
including servers, computers, notebooks, software, printers, 
and accessories. The report also noted that prior to 2012, WIPO 
had no procedure in place to review whether technology 
transfers and shipments to countries like North Korea would 
potentially violate U.N. sanctions. That to me is unfathomable 
and unconscionable.
    WIPO may still have been inconsistent in requesting reviews 
of shipments to countries subject to U.N. sanctions. It should 
be a reasonable expectation that a U.N. body would follow U.N. 
Security Council resolutions. I don't think that is outlandish. 
WIPO's transfer of dual-use technology and software to North 
Korea should have undergone at least some level of scrutiny. 
The risk that North Korea could use these technologies to 
assist in its development of nuclear and missile capabilities 
is a risk we don't want to take. The regime has already 
conducted cyber attacks on foreign governments and 
organizations, and it is totally unacceptable the WIPO might be 
the organization that provided the computers from which they 
conducted these attacks. We must ensure that we prevent these 
mistakes from occurring again.
    Now, we brought some very brave individuals here today who 
have brought these issues to our attention. We may not have 
learned of these activities if it weren't for these brave 
people that are on our panel. And I commend them for their 
efforts and for their courage. I know it is not easy to stand 
up and do what you did.
    I am proud to support whistleblowers, and firmly believe in 
robust protections for all whistleblowers, as well as greater 
transparency in all government agencies. I think that is what 
the taxpayer and the people of the United States expect and 
deserve. I look forward to hearing from our witnesses with 
their first-hand knowledge on this issue, particularly as it 
relates to North Korea.
    I thank you and I yield back.
    Mr. Smith. Thank you, Chairman Salmon.
    I would like to now introduce our distinguished witnesses 
beginning first with Mr. James Pooley, who recently completed a 
5-year term as Deputy Director General of the World 
Intellectual Property Organization, where he was responsible 
for the management of the international patent system. Before 
his service at WIPO, Mr. Pooley was a successful trial lawyer 
in Silicon Valley for over 35 years, representing clients in 
patent, trade secret, and technology litigation.
    He currently provides litigation and management advice in 
trade secret and patent matters and has taught at the 
University of California, Berkeley. Mr. Pooley is author or co-
author of several major works in the intellectual property 
field.
    We will then hear from Dr. Miranda Brown who is a former 
Australian Government official who joined the Australian 
Department of Foreign Affairs and Trade and occupied a number 
of positions in the Department before being appointed as the 
Deputy Permanent Representative at the Australian Mission to 
the U.N. in Geneva.
    As Australian Deputy Permanent Representative in Geneva she 
worked closely with Mr. Francis Gurry, the current Director 
General of WIPO. She worked in support of his election campaign 
in 2008. She later joined WIPO as the Strategic Advisor to the 
Director General of WIPO in July 2011, and occupied this 
position until November 2012.
    We will then hear from Dr. Matthew Parish who is here today 
because he serves as outside counsel to the WIPO Staff Council, 
an organization that represents WIPO employees. He is an 
international lawyer specializing in cross-border arbitration, 
litigation and enforcement, international trade, foreign 
investment, resource extraction and export, emerging markets, 
and public international law.
    Dr. Parish has represented clients across a wide variety of 
industries, including shipping, international trade, energy and 
infrastructure sectors, banking, insurance and financial 
services, governments, and international organizations. He is a 
fellow of the Chartered Institute of Arbitrators and accepts 
appointments to sit as an arbitrator across Europe. He is also 
founder and managing director of Gentium Law Group in Geneva.
    Mr. Pooley, the floor is yours.

 STATEMENT OF MR. JAMES POOLEY, ATTORNEY AT LAW (FORMER DEPUTY 
  DIRECTOR FOR INNOVATION AND TECHNOLOGY, WORLD INTELLECTUAL 
                     PROPERTY ORGANIZATION)

    Mr. Pooley. Thank you, Chairman Smith, and good afternoon 
to you and good afternoon to Chairs Ros-Lehtinen and Salmon, 
and to Ranking Members Bass, Deutch, and Sherman.
    I had the privilege of serving at the World Intellectual 
Property Organization and reported to Mr. Gurry from 2009 to 
2014. Mr. Gurry is the most senior Australian national at the 
U.N., and has been working at WIPO for over 30 years.
    WIPO has a very serious governance problem. In effect, the 
organization is run by a single individual. And this is 
possible only with the tacit cooperation of the member states 
that are supposed to act as WIPO's board of directors.
    I will describe today just three examples of things that 
Mr. Gurry did while I was there: First, his gift of powerful 
computer equipment to North Korea; second, his secret 
agreements with China and Russia to open offices, and; third, 
his retaliation against whistleblowers.
    In March 2012, I heard from my colleague here Dr. Brown 
that the Bank of America had intercepted an international 
payment intended by WIPO for the shipment of high-end U.S.-
origin computer equipment and an electronic firewall to North 
Korea. I was very disturbed by this, in part because as a 
lawyer I knew that this was dual-use technology that could not 
go to North Korea without an export permit. But I was also 
alarmed by the firewall because there was no reason that we 
needed to give North Korea a firewall except for one, which was 
to keep North Korean citizens from using that equipment to get 
onto the Internet.
    I went to Mr. Gurry and I asked him to reconsider. I 
explained to him that in the U.S., where you can go to prison 
for quite a number of years for doing what we had done here, 
that it would be seen as unacceptable for a U.N. agency to be 
doing the same thing. He told me that he didn't care what the 
U.S. thought because WIPO didn't have to obey U.S. law.
    This committee then started an investigation, or attempted 
to. Mr. Gurry blocked the testimony by myself and Dr. Brown 
and, as a result, the hearing for July 2012 was canceled. 
Around that same time I understand that Mr. Gurry hired a DC 
lobbying firm to help him with whatever U.S. political problems 
he had. And in 2012, WIPO paid that firm $193,500. Now, that 
money and the money that went to pay for the equipment that 
went to North Korea was substantially from U.S. inventors and 
their patent fees.
    Second example: In 2013 I learned that Mr. Gurry had 
entered into secret negotiations with China and with Russia for 
the opening of satellite WIPO offices. We, on the senior 
management team, learned about this only from articles in the 
China Daily News and the Voice of Russia. And the resulting 
controversy around this caused the breakdown of that year's 
meeting of member states in October.
    Shortly thereafter, in November, a bipartisan group of 12 
Members of Congress sent a letter to Secretary Kerry asking 
that the U.S. find someone else to support for the upcoming 
election of Director General, it recited the problem with the 
shipment to North Korea, the offices, and also the role that 
Mr. Gurry had apparently played in the theft of DNA from staff 
members and his later cover-up of the incident. Now, the 
immediate response to this letter did not come from the State 
Department but, rather, it came from Kim Beazley, the 
Australian Ambassador to the U.S., who basically denied 
everything and referred to the equipment that had been sent to 
North Korea as standard office equipment.
    In this, and in many other ways at that time, Australia 
made it very clear that it wanted Mr. Gurry to be reelected and 
as a result, the U.S. agreed to stand on the sidelines during 
the election process.
    Third example: In early 2014 I learned that Mr. Gurry had 
interfered with an external effort to place a contract for a 
competitive bid on an IT matter by directing that the contract 
be awarded directly to a company in Australia run by a friend 
of his. And when I learned this I reported that and the DNA 
theft to the chair of the WIPO General Assembly. The 
retaliation against me was both swift and hard. Mr. Gurry had 
the chief legal officer of WIPO threaten me and a U.S. 
journalist who had written an article about my complaint, who 
was told that he faced criminal prosecution in Switzerland if 
he did not immediately take down the article and issue a 
personal apology to Mr. Gurry.
    There was condemnation from the international intellectual 
property community about this but the State Department made no 
public statement. And 3 weeks later the member states of WIPO 
gathered and elected by consensus Mr. Gurry to another 6-year 
term.
    The retaliation continued. And so, as required, I reported 
it to WIPO's chief ethics officer Avard Bishop, who told me, 
unsurprisingly, that there was nothing that could be done about 
it. Indeed, Mr. Bishop had come to me in confidence not long 
before to describe to me how he believed his entire job was 
hopeless under the circumstances. And I am sad to report that 3 
months later he committed suicide.
    Mr. Gurry's replacement chief ethics officer dithered with 
my complaint for retaliation for 6 months, eventually deciding 
that WIPO could do nothing with my complaint because by that 
time my term was over and I was no longer a WIPO employee. And 
he specifically refused to allow external arbitration of the 
sort that is required by the Budget Act of this Congress.
    In the meantime, the investigation into my original 
allegations was started, but it was halted in the fall of 2014 
by Mr. Gurry. Now, the U.S. objected strongly to that. 
Eventually, last May the investigation was restarted by an 
internal organ of the U.N. and my understanding is that that 
investigation has been completed. But try as hard as I have, I 
have not been able to find out exactly who has the report and 
what it says.
    Any one of these three behaviors as examples that I have 
given you--and there are more--in a private company or in a 
public institution would result in the executive being 
dismissed by the board. In this situation, we collectively are 
the board of WIPO. We can accept that countries act in their 
national interests, but we should not accept that the U.S. 
stand by or stand down while its national interests are 
ignored, especially if they are interests like transparency and 
good governance.
    I also appreciate that there are competing geopolitical 
concerns that weigh on the most senior officers of the State 
Department. But in this case, when our good reliable ally 
Australia came to us and asked us to be quiet, the right 
response should have been, ``We understand, but we have 
competing considerations that override your concerns.'' Now, I 
believe that the State Department would benefit by having the 
cover that would come from Congress making very clear and 
strong what the priorities are, including proper governance and 
the protection of whistleblowers. We would all benefit, I 
believe, from the kinds of reforms that we have suggested in 
our submitted statements.
    So let me close here by observing, as President Reagan once 
did, ``There are no easy answers, but there are simple answers. 
We must have the courage to do what we know is morally right.''
    Thank you.
    [The prepared statement of Mr. Pooley follows:]
    
    
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    
                        ----------                              

    Mr. Smith. Mr. Pooley, thank you very much for your 
testimony and you and Dr. Brown for your courage in being so 
steadfast over the course of so many years in making sure that 
this information is made completely laid bare for all to see. 
And we will follow up. And I thank you for it.
    Dr. Brown, please provide your testimony.

STATEMENT OF MS. MIRANDA BROWN (FORMER STRATEGIC ADVISER TO THE 
  DIRECTOR GENERAL, WORLD INTELLECTUAL PROPERTY ORGANIZATION)

    Ms. Brown. Good afternoon, Chairman, ranking members, and 
members of the committee.
    I will focus on what happened following my report to the 
U.S. Government of WIPO's shipment of computers to North Korea, 
my cooperation with this committee in 2012, and subsequent 
retaliation against me as a whistleblower, as well as providing 
information on what I believe is an ongoing pattern of abuse of 
authority at WIPO.
    On March 14, 2012, I received a phone call from a WIPO 
staff member working in the procurement area who informed me 
that there was a problem with a payment for a shipment of 
computers to North Korea. At first I thought this was a joke, 
but I soon realized that the staff member was serious, as he 
explained that the U.S. Office of Foreign Assets Control, OFAC, 
had blocked the WIPO/UNDP payment by the Bank of America for 
the computers. At that stage it was not yet clear whether the 
computers had already been shipped to North Korea and I decided 
to immediately try to stop the transfer.
    I called Mr. Gurry and expressed my very strong concerns 
about WIPO engaging in any project with North Korea without 
prior approval of the member states of WIPO, including the 
U.S., and without clearance by the U.N. Security Council 
Sanctions Committees. I informed him that OFAC had blocked the 
payment for the equipment.
    Mr. Gurry's response was profoundly disturbing. He said 
that North Korea is a WIPO member state like any other and it 
deserves technical cooperation. He also said that WIPO is not 
bound by U.S. domestic or U.N. Security Council sanctions. I 
advised him to immediately stop the project. He told me to go 
and fix the payment problem.
    I returned to my office and immediately called the U.S. 
Mission in Geneva to report the situation. Later that day I 
forwarded the email chain on the OFAC decision to the U.S. 
Mission. The following day I obtained all the documents on the 
project and provided these too to the U.S. Mission. It became 
clear that sophisticated IT equipment, which was American 
origin and which included high-end servers and firewalls, had 
already been shipped to Pyongyang.
    When I tried to find out more about the secret project, 
WIPO staff told me that this was one of North Korea's requests 
in exchange for supporting Mr. Gurry's election.
    Soon after, I learned that----
    Mr. Sherman. Could you repeat that sentence again?
    Ms. Brown. When I tried to find out more about the secret 
project, WIPO staff told me that this was one of North Korea's 
requests in exchange for supporting Mr. Gurry's election.
    Soon after, I learned that Mr. Gurry had approved a similar 
project with Iran. I reported this and the documents to the 
U.S. Mission too.
    Then Mr. Kateb, acting as the president of WIPO's Staff 
Council, demanded that these projects be examined by the U.N.'s 
Office of Internal Oversight Service, OIOS, and by the U.N.'s 
Joint Inspection Unit. And shortly thereafter, your committee 
launched an investigation into the shipments. Mr. Gurry refused 
to allow me to testify, and forbade me from cooperating with 
this committee. Despite this, I provided this committee with 
all relevant documents relating to the projects, and responded 
to requests from staffers for further materials and 
information.
    At the time I reported the shipments, WIPO had no 
whistleblower policy in place. I had to use my own judgment. 
Had the member states been consulted on the North Korea project 
and approved it? No.
    Did the U.S. know about it? No.
    Did the U.S. have a right to know that American IT 
equipment had been shipped to North Korea in likely violation 
of U.S. sanctions and national law? Yes.
    Was this matter urgent? Yes.
    Did I stop to think about whether WIPO had a whistleblower 
policy in place and whether I should be protected--I would be 
protected? No.
    Retaliation was the last thing on my mind at that point. I 
felt confident that the U.S. Government would use its 
considerable influence to fully protect me for reporting secret 
shipments of American IT equipment to North Korea. But, sadly, 
the retaliation was severe. Mr. Gurry accused me of disloyalty 
and of leaking documents to the U.S. Mission and to the media. 
He told an Ambassador from a Western state that he would be 
offering me a plea bargain whereby I would be exonerated from 
any investigation into the so-called ``leaks'' in exchange for 
the names of those WIPO staff with whom I had shared the North 
Korea and Iran project documents. The names apparently included 
Mr. Pooley, Mr. Kateb, the president of the WIPO Staff Council, 
and others whom he apparently wanted to purge from the 
organization.
    If I signed the plea bargain I would not be suspended or 
placed under investigation for the ``leaks.'' Of course I could 
not sign any plea bargain and expose my colleagues to certain 
disciplinary sanctions, so I went on extended medical leave for 
stress.
    When I returned to work, Mr. Gurry immediately resumed the 
retaliation against me. And in an apparent test of my loyalty 
to him, he ordered that I work on another secret project, this 
one to establish WIPO external satellite offices, including in 
Beijing and Moscow. He expressly forbade me from talking with 
any member state and insisted on total secrecy. I again 
informed the U.S. and other member states.
    When I protested about the secrecy of this project, Mr. 
Gurry told me that he would not be renewing my contract, which 
was not due to expire for 7 months, on the basis that I was 
disloyal and too close to the member states, and in particular 
the U.S., and because I had cooperated with this committee. 
Given this, I had no option but to leave WIPO. I resigned under 
duress and took a lower-level position in another organization.
    International organizations must balance the need for 
confidentiality with transparency. There is no Freedom of 
Information Act and member states must rely on the integrity 
and good faith of the U.N. agency head, in the case of WIPO, 
the Director General, to run the organization in an open and 
transparent manner, with the member states being consulted on 
all aspects of the organization's work.
    Mr. Gurry's leadership of WIPO is sadly characterized by 
secrecy and also an extraordinary vindictiveness toward 
whistleblowers. He apparently sees the organization and its 
resources as his personal fiefdom, and he expects staff to 
demonstrate their absolute loyalty toward him and not the 
organization and its mandate.
    The adoption of the WIPO whistleblower policy in November 
2012 was a positive development, however, its implementation 
has failed under Mr. Gurry's regime. More generally, U.N. 
whistleblower protections fail where the allegations of 
wrongdoing involve the U.N. agency head, because all of the 
internal accountability mechanisms report directly to the U.N. 
agency head.
    Prior to leaving WIPO in November 2012, I blew the whistle 
on what I strongly suspected was improper and possibly criminal 
behavior on Mr. Gurry's part. Documents, including a hospital 
report, indicated that Mr. Gurry was involved in a theft of 
personal effects from WIPO staff and secret extraction of their 
DNA. I requested an independent investigation into Mr. Gurry's 
role but this was denied.
    In February 2013, I filed a complaint with the U.N. 
International Labor Organization Dispute Tribunal, which is a 
staff tribunal, requesting that the tribunal overturn the 
decision not to allow an investigation. Three years have 
passed, and the tribunal has yet to consider my request for an 
external investigation.
    These allegations have now been examined by the U.N.'s 
Office of Internal Oversight Services. And I was told that the 
investigation report has been finalized and the report 
transmitted to the chair of the WIPO General Assemblies, 
Ambassador Gabriel Duque of Colombia. It's clear, based on the 
investigation process, that the report contains adverse 
findings against Mr. Gurry.
    Mr. Kateb, who was fired by Mr. Gurry for his whistleblower 
activities, and I remain without a job. We are both unemployed. 
In October 2015, we sent a joint letter to Ambassador Duque 
requesting our urgent reinstatement at WIPO. There has been no 
response to date.
    Both of us stood up for the interests of WIPO, the U.S., 
and the international community. If what happens to us goes 
unchecked, no U.N. staff member will feel safe reporting 
corruption at the top of the U.N. organization. Our cases will 
sadly act as a very strong deterrent.
    My motive for reporting the allegations of wrongdoing at 
WIPO is, and always has been, to protect the organization. I 
believe that my government, the Australian Government, has been 
seriously misled by Mr. Gurry, as we all have been. In my 
opinion, Mr. Gurry's leadership is dangerous to the 
organization, and his ongoing tenure as Director General risks 
further damaging not only WIPO but the U.N.'s reputation.
    I thank you for inviting me here today.
    [The prepared statement of Ms. Brown follows:]
    
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                     ----------                              

    Mr. Smith. Thank you very much, Dr. Brown.
    I would like to now yield to Dr. Parish.

STATEMENT OF MR. MATTHEW PARISH, FOUNDER AND MANAGING DIRECTOR, 
                       GENTIUM LAW GROUP

    Mr. Parish. Chairman, ranking members, and distinguished 
members of the committee, thank you for the opportunity to 
testify today on the lack of accountability at WIPO.
    As you have learned from your investigation and from the 
other witnesses, WIPO seems to have set a new low when it comes 
to accountability and management of its affairs.
    I am testifying in my capacity as private legal counsel to 
the WIPO Staff Council. The Staff Council is the sole union 
available to employees of the organization. The Staff Council 
exists under purview of the rules and internal institutions 
that the WIPO Director General controls. It is not an 
exaggeration to say that members of the Staff Council live in 
daily fear for their jobs and their careers.
    The individual members of the Staff Council are effectively 
prohibited from testifying here today because, as WIPO 
employees, they are banned from providing testimony on matters 
relating to whistleblowing or wrongdoing because their 
employer, the Director General Francis Gurry, prohibits them 
from doing so.
    I wish to share with you my client's concerns about the 
theft of staff personal effects and subsequent extraction of 
those staff members' DNA without their consent. In essence, it 
appears that Mr. Gurry unlawfully employed techniques 
ordinarily reserved solely to Swiss law enforcement agencies 
acting under a due warrant to attempt to determine the identity 
or one or more WIPO employees critical of him. It has been 
reported that he orchestrated raids of staff members' offices, 
while they were not present, to achieve this goal.
    Some of these allegations date back to 2008, and it took 
substantial time before the Office of Internal Oversight 
Service of the United Nations took the matter up. Officials of 
the OIOS subsequently opened an investigation, reached 
conclusions, and prepared a report. The report was copied, was 
forwarded to the chair of the General Assemblies of WIPO, from 
whom I have requested a copy. My reasoning was simple: If the 
report exonerated Mr. Gurry, it is fair and proper to Mr. Gurry 
that it be circulated and released so that his reputation might 
be cleared.
    But if the report criticizes Mr. Gurry, then it should be 
released forthwith, subject to any redaction appropriate to 
protect the identities of vulnerable witnesses. It should, 
first and foremost, be released to the member states whose role 
is to oversee the proper functioning of WIPO and of Mr. Gurry. 
Only they can decide to sanction Mr. Gurry, dismiss him from 
office, or waive his legal immunity from prosecution. They 
cannot perform their oversight mandates without receipts of a 
full copy of the report, as WIPO is required to do.
    But the report should also be released to the Staff 
Council, so that the more than 1,000 WIPO staff are informed of 
the investigation's outcome. They have a right to know about 
whether there is a conclusion that the Director General 
violated their rights or otherwise acted in a manner 
inconsistent with ethical management of the organization.
    There is another issue I wish to share with the committee 
today. The former chair of the WIPO Staff Council, Mr. Moncef 
Kateb, was renowned as a severe critic of Director General 
Gurry over several years. Unfortunately, he cannot be here 
today. But I would like to say a few things about how he was 
dismissed.
    WIPO used to have a disciplinary regime for staff accused 
of misconduct, in order to protect their rights and interests. 
Last year, the entire system was dismantled by Mr. Gurry and 
replaced with a system permitting him to suspend a staff member 
without pay upon an accusation leveled by him. It might be fair 
to classify this new system as a ``Court of Star Chamber,'' 
particularly where the sin of the staff member in question is 
criticism of the Director General himself.
    Mr. Kateb was among the first victims of this. He was 
dismissed upon 7 days' notice on an absurd technicality. After 
Mr. Kateb's dismissal, a new Staff Council was constituted.
    Another arch-critic of Mr. Gurry was elected as Mr. Kateb's 
successor by the members of the Staff Association. Now Mr. 
Gurry is unilaterally changing the rules for Staff Council 
elections, in order to force another election of staff members 
to the Staff Council in an attempt to dislodge the new Staff 
Council.
    In view of the considerable power that the Director General 
has over WIPO staff in terms of their job security, I had to 
decide not to share drafts of my written testimony with the 
WIPO Staff Council so that Mr. Gurry can't consider them to 
have taken any individual actions that would lead him to 
terminate them summarily from their jobs with WIPO, as he did 
to Mr. Kateb, or to threaten them in other ways. That is the 
state of employment with WIPO today.
    The old adage that ``sunlight is the best disinfectant'' is 
appropriate for the issues surrounding WIPO. The Congress is, 
in my view, well-positioned to help generate the release of the 
OIOS report and to provide greater transparency and 
accountability into the operations of WIPO.
    Thank you very much for listening to me today.
    [The prepared statement of Mr. Parish follows:]
    
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                        ----------                              

    Mr. Smith. Thank you very much, Dr. Parish.
    Let me just begin the questioning. First, you know, to take 
your last point first about trying and Congress generating some 
pressure to release it, all of you might want to speak to what 
the Congress might do. Should we be looking to a resolution, 
for example, sense of the Congress or otherwise, calling on the 
President to use his full voice and vote--our representative of 
course at WIPO--to do just that?
    I know you point out in your testimony that the Ambassadors 
of the UK and the United States have asked by way of 
correspondence, but a simple ask can be very easily ignored. 
This ought to be a demand that is backed up by punch and by a 
great deal of pressure just to get that report out. So that 
would be number one.
    Secondly, why hasn't the Obama administration been more 
aggressive in trying to--I mean North Korea, you talk about 
rogue states, there are few nations on Earth that are as 
threatening as Pyongyang to the world, not just to South Korea, 
but to the world--so why haven't they been more aggressive?
    You might want to further detail what it is that was sent, 
the servers and the like. What really did make its way to North 
Korea?
    The accusations made against WIPO are serious, including 
vote buying by North Korea for the Director General, technology 
transfers to Iran, of course North Korea, Cote D'Ivoire, DRC, 
Iran, Iraq, Liberia, Libya, and Sudan. It was Dr. Brown who 
said that WIPO is not bound by U.S. domestic and U.N. Security 
Council sanctions. Are you kidding me? U.N. Security Council 
sanctions don't apply to Mr. Gurry? I find that appalling. Is 
that legal for him to suggest that? It would seem to me that it 
applies to every player in the world. And this is a member 
state organization, why wouldn't it apply to them, both U.S. as 
well as U.N. Security Council resolutions?
    I do have a number of questions but we do have a lot of 
members here so I will just hold it to that for now and yield 
to you for your response.
    Mr. Pooley. If I may, Chairman Smith, I, there is perhaps 
one of your questions I can't really answer because it is a 
broad political one. I suppose we can speculate about why 
certain actions were taken or not taken. But let me just say 
that in my experience at Geneva, one thing I can tell you is 
that the people that we have representing the United States 
there are very fine professionals and represent the interests 
of the United States very well.
    I think the problem that we entered into in this broad 
issue with WIPO came as a result of a miscalculation about what 
our relationship with Australia really meant. And sometimes I 
put it this way: Friends don't let friends drive drunk. You are 
supposed to talk, in talking to a good friend, tell them the 
bad news along with the good news.
    And so I can only--I am not privy to the inside 
conversations that they may have had, and there may have been 
other issues. I don't know, but it sure felt like that to me. 
Let me just say, I do believe that some sort of resolution by 
Congress would be extremely helpful. Having spent 5 years in 
Geneva talking with many diplomats from many other countries, 
what I heard over and over again was: What is the United States 
going to do? What does the U.S. think about this?
    And for a lot of probably good reasons in certain 
circumstances, our diplomatic representatives there are, well, 
they are very diplomatic. And now and then if we think 
something is very, very important, I think the representatives 
of the American people here in Congress can have a voice heard 
across the Atlantic in ways that may be more difficult to 
ignore. And that is an example of the kind of cover that 
Congress can give the State Department on matters of really 
great importance.
    So I can also, I think it would be helpful perhaps if I 
responded on what the equipment was here, coming from Silicon 
Valley. If anyone had come to me as a lawyer and said, I would 
like to, I can buy these things. . . . They were a Hewlett-
Packard ProLiant DL360 G7 server which WIPO paid $7,845 for. 
This is not something you get at Office Depot; right? A Hewlett 
Packard Color LaserJet massive printer, almost $14,000; a 24-
terabyte disc array.
    And remember, this was 4 years ago. Technology has come 
pretty far since then. Back then a 24-terabyte disc array was a 
massive storage device. And then, of course, there was the 
SonicWall firewall which came, itself came in at almost $5,000.
    That was the equipment. And, yes, I suppose it could have 
been purchased in the U.S., but you can't buy it to send it to 
North Korea. And if you did, you would go to prison for a long 
time.
    Mr. Smith. Before the other two witnesses answer, if you 
could also answer the question, the lobbyist firm that was 
hired, who is it? With whom did they meet? Was the pressure 
primarily on the White House, the Congress? They certainly 
didn't visit me as far as I know. If they did, I would have 
showed them the door. Would have asked questions but shown them 
the door, given what has to be a feeble response.
    The Australians are very close friends and allies. I am 
bewildered. I am shocked by this. In shock for many months, and 
even years now. If you have a bad apple, you expunge the bad 
apple. This is hurting their reputation. And, again, they are 
good close friends.
    And just for the record, too, I would just point out to my 
colleagues, as they know, we did invite Francis Gurry to come 
and brief us. It would be a briefing rather than a hearing, 
pursuant to House rules. If he couldn't make it, we asked that 
John Sandage come. We will repeat that over and over. We want 
to hear from them and ask them honest questions and tough 
questions.
    So that will remain open, our door. All three of us want 
them to come, our three subcommittees. But this lobby firm, 
where did they put the pressure?
    Mr. Pooley. Well that, Chairman Smith, I hope that if they 
come you do ask them about that because, quite honestly, we 
don't know and we can't find out. We didn't know, the U.S. 
didn't know about WIPO spending this money on a lobbyist firm 
here in DC until it was discovered by virtue of the lobbyist 
disclosure regulations that apply here. And doing searches over 
and over again for something about WIPO we finally found 
something. And there it was, $193,000 paid to a company called 
Manchester just in 2012.
    Now, what actually happened as a result of that we have no 
way of knowing. When Mr. Gurry sends somebody on an overseas 
trip they are, of course, bound to absolute confidentiality. 
And I am probably one of the last people they would report on 
something like that.
    So we, I would love to find out the answer to that 
question.
    Mr. Smith. And just to that final question, Dr. Brown, 
about the Security Council sanctions not applicable as to WIPO; 
how could that be?
    Ms. Brown. Thank you. I think the point there is that in 
the subsequent conversation with Mr. Gurry what he said was 
that WIPO was not a member state, therefore it wasn't bound by 
U.N. Security Council sanctions or resolutions.
    I mean I, I am not a legal expert on this, but I have to 
say that the intent of those resolutions is surely meant to be 
binding on everybody, including the U.N. organizations.
    And one point perhaps I could elaborate on is at the time 
that these projects were taking place, the U.N. had gone 
through some considerable soul searching about its relation to 
engaging with North Korea. And, in fact, there had been an 
inquiry. The Nemeth report had been issued. And from then on it 
was determined that any engagement from the U.N. specialized 
agencies, there would be a board essentially that would 
establish the review projects, and the UNDP would administer 
these projects.
    And at that time the only projects that were really taking 
place, the only U.N. projects taking place in North Korea were 
very basic technical cooperation projects which related to seed 
production, food production. And any equipment being taken in 
by the U.N. was being closely monitored and had to come out at 
the end of the project.
    So this, this particular WIPO project was also in a way in 
violation of the U.N.'s own structure that had been established 
for North Korea.
    Mr. Smith. Yes.
    Mr. Parish. Sir, on the issue of sanctions, United Nations 
sanctions, the entire analysis we have heard that came from Mr. 
Gurry is obviously specious and fictitious as a matter of law. 
It is completely absurd.
    WIPO is a specialist agency of the United Nations. It is 
designated as such, pursuant to treaty. The idea that an agency 
of the United Nations can lawfully act as an agent for the 
evasion of U.N. sanctions endorsed by the Security Council is 
completely absurd. It is ridiculous. Nobody could defend that 
for even 30 seconds. It is crazy.
    One other comment, sir, on what Congress might do. We have 
got to see this report. The report is being investigated. We 
know that the investigators investigated it. We know the report 
has been finished. We know it has been passed to Ambassador 
Duque who is the chair of the WIPO General Assemblies. I have 
asked him for it. He ignored me. I asked him again. He ignored 
me. I asked his Foreign Minister. He ignored me. I have not had 
any response whatsoever. This, everybody has been asking for 
this report; nobody is getting it.
    Where is it? Why can't we see it? I can't imagine of any 
conceivable legal or policy reason for holding it back. And 
there is nothing but a wall of silence.
    Mr. Smith. Thank you.
    Ranking Member Sherman.
    Mr. Sherman. We seem to see the FIFA of U.N. agencies. I, 
the only question from me is what should Congress do?
    I sit here as ranking member of the Asia and Pacific 
Subcommittee. First, I joined with colleagues here to introduce 
a resolution demanding audit, disclosure and a copy of this 
report. The question is, do we go further than that and 
explicitly say in the resolution that Gurry should resign? 
Based on what I have heard here, I am happy to throw that into 
the resolution.
    But then, and this comes before our subcommittee, should we 
explicitly criticize the Government of Australia for sticking 
the world with this person? Dr. Brown.
    Ms. Brown. Thank you very much. I think the Australian 
Government has been misled by Mr. Gurry.
    Mr. Sherman. Well, they, when they use their power and 
influence they have an obligation not to be bamboozled because 
someone who is a native of Australia asks a favor. And whether 
it is negligence from the Foreign Ministry of Australia or 
whether it is gross negligence is something the resolution 
could ask, that we would ask the Australians to tell us whether 
it was negligence or whether it constituted gross negligence.
    But the Australian Government has asked the United States 
for help in its national security again and again. And now it 
is responsible for technology that I realize now was more 
advanced by the standards of when it was shipped than it is 
today, they are responsible for North Korea and Iran for having 
this technology. So if Australia is going to ask for our 
soldiers and then foist this guy and put him in a position 
where he can evade U.S. security sanctions, it sounds like the 
only part of the world whose security they care about is 
Australia. Yet they ask us to care about the security of the 
world.
    So I do think we need a resolution. I would like to see the 
Australian Ambassador come here and brief us, our subcommittee, 
either publicly or privately, should we simply discount as ill-
considered everything we hear from the Australian Foreign 
Ministry? Because obviously they didn't spend any time 
determining whether they should fight for Mr. Gurry.
    Mr. Pooley.
    Mr. Pooley. I, one thing I want to point out, I had a 
similar reaction from Mr. Gurry, that Dr. Brown has reported, 
when all of this happened. Later there was a study done by U.N. 
lawyers who determined that when you parse the Security Council 
sanctions very carefully, the kind of equipment here was not 
radiation-hardened or otherwise of the sort that would 
necessarily apply. There are lawyers I think who might 
disagree, but that was the finding.
    So I think in fairness what, what we need to focus on----
    Mr. Sherman. What Mr. Gurry did is contrary to security, 
national security interests of the United States. And he 
obviously did not care whether he was violating U.N. security. 
Now, even if as a technical matter he can come back after the 
fact and point to some loophole, this is a man who has asserted 
that he will boldly violate U.N. Security Council resolutions 
designed to protect the national security of the United States 
and the world. And he puts forward the idea that U.N. Security 
Council resolutions do not apply if you have an entity created 
by two countries, therefore it is not a country.
    If that were the case, anyone, say Paraguay wanted to ship 
something to North Korea, all they have to do is form the 
Paraguay-Cayman Islands Joint Committee, and apparently every 
U.N. Security Council resolution can be evaded by any country 
completely legally so long as the Cayman Islands will 
participate, or any one of the other tiny countries in the 
world.
    So the Australian Ambassador wants us to take them 
seriously. They want us to listen to them on the theory that 
they care about world security and that their comments are not 
rubbish. Support for Mr. Gurry demonstrates one or other of 
those statements is false: Either they will just repeat without 
investigation anything that a well-paid Australian asks them to 
say, or they really don't care about the sanctions against 
North Korea, the sanctions against Iran, not to mention how 
this agency is being run.
    So I, I would hope that Australia would remedy this by 
taking the lead on this organization in demanding this man's 
resignation. And I think that that is something that would be 
listened to because we are not the only country aware that this 
gentleman was foisted on the world by a Australian Foreign 
Ministry that either didn't know or didn't care.
    But I will ask the panel, other than the soft resolution I 
am talking about here, what else can Congress do?
    Mr. Pooley. Well, one of the things we have indicated in 
our written submissions is to reconsider the issue of 
diplomatic immunity for top executives. We give unqualified, 
more or less, diplomatic immunity. And it actually is qualified 
in a certain way. But we need to have a different standard 
applied so that they don't retreat and they don't know that 
they can retreat into this safe harbor of diplomatic immunity.
    Mr. Sherman. But in this case the gentleman is based in 
Switzerland; correct?
    Mr. Pooley. He is. He is. But and he has, he enjoys that 
status because we have generally agreed to it. And that, that 
allows him to know that he can't be pursued and he can't be 
held accountable in some of the ways that would matter the 
most. And so that is one thing that could be looked at.
    Another thing is to create some sort of executive board 
that he could not manipulate. And by ``he'' I mean any Director 
General of any agency could not manipulate in a sense of seeing 
to it who was appointed.
    Mr. Sherman. How many countries are in the organization? 
They each have an equal vote?
    Mr. Pooley. It is one country, one vote. And it is about 
185 I think.
    Mr. Sherman. Gotcha.
    Mr. Pooley. In that, it is in that range. So that would be 
very, very helpful.
    Mr. Sherman. That is how FIFA was run by a director who 
then bought off the smallest and most needy countries.
    Mr. Pooley. As a personal note, Congressman, I have to say 
that when I saw the first long article about the FIFA problems 
it almost threw me back on how you could substitute names. And 
it represents----
    Mr. Sherman. Does anybody else have a program for Congress?
    Ms. Brown. No. I would agree with what Mr. Pooley and Dr. 
Parish have said. I mean I think the Congress could play a very 
significant role here. Your voice is what matters.
    Mr. Sherman. I would say that we shouldn't criticize 
Australia in the resolution so long as prior to the 
introduction of the resolution Australia calls for the 
resignation of Mr. Gurry.
    Dr. Parish, anything else Congress can do?
    Mr. Parish. The only point I would make, sir, is this: Mr. 
Gurry is completely immune from any Swiss criminal or civil 
jurisdiction. If the evidence you have heard today is correct, 
then it does appear that he is has committed some very serious 
criminal offenses. They are criminal offenses in Switzerland, 
just like they are criminal offenses in the United States. But 
there is nothing anybody can do about it because whereas he can 
waive anybody's immunity that works for him, his immunity is 
completely unwaivable unless you get a majority of these member 
states to waive it. And it is an absolutely impossible bar to 
achieve.
    Mr. Sherman. I yield back.
    Mr. Pooley. Mr. Chairman.
    Mr. Smith. Mr. Pooley.
    Mr. Pooley. If I might make one more suggestion, and that 
is, and you may have noticed that external arbitration was 
refused to me, we may benefit greatly from Congress taking 
steps to enforce that idea, that across the U.N. the only way 
that you can get justice for whistleblowers who have come 
forward and presented something important and who have suffered 
retaliation as a result, the only entity that can make a 
judgment about whether or not that has happened and what to do 
about it is an entity other than the U.N. itself or its 
agencies.
    So external independent arbitration would be very helpful.
    Mr. Smith. Chairwoman Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Smith. And I 
want to thank all of the witnesses for excellent testimony 
today, especially Mr. Pooley and Dr. Brown. Thank you so much. 
It has been a very long road to this point and you both have 
been incredibly brave to continue coming forward despite the 
grave risk involved. And I am very concerned by Mr. Gurry's 
capacity to continue retaliating against you both.
    Dr. Brown and Mr. Pooley, I want to ask, I want to ask you, 
has the State Department been asked to watch Mr. Gurry closely? 
Do you get that sense, Dr. Parish, that to ensure that these 
whistleblowers, as well as Moncef Kateb are protected in the 
months ahead? Do you get the sense that Mr. Gurry feels any 
pressure whatsoever?
    Mr. Pooley. Yes, thank you, Congresswoman Ros-Lehtinen. I 
have probably been more closely in touch with State Department 
personnel than others here. And I can say certainly the ones 
that I have been dealing with are all very concerned and 
watching very closely. There is no doubt that they receive all 
of this information, they are concerned about it. At a personal 
level they have made expressions of concern to me.
    And so they certainly are aware.
    Ms. Ros-Lehtinen. Does Mr. Gurry, do you think he feels any 
pressure?
    Mr. Pooley. I have no idea.
    Ms. Ros-Lehtinen. And his behavior at WIPO by any standard 
would be judged to have been absolutely despicable. And I am 
shocked that he remains in office. Are you shocked as well or 
do you know that agency so well that it is hard to shock you?
    Mr. Pooley. Well, maybe that is true by now. As I said to 
someone today, nothing would surprise me anymore.
    I would prefer not to take a position on that. I have from 
the beginning said that my involvement in all of this has one 
goal and one goal only, and that is to get information to the 
member states so the member states on an informed basis can 
decide what to do.
    Mr. Gurry has on various other occasions tried to make this 
a personal issue. I do not want to go there and so I hope you 
will forgive me if I don't comment.
    Ms. Ros-Lehtinen. Absolutely. I understand.
    But I hope that this administration would use every bit of 
its voice, its vote, its influence at WIPO and with the member 
states to ensure that Gurry is removed from office as soon as 
possible. This administration must also ensure that 
whistleblowers are reinstated at WIPO immediately.
    So I will ask you both about whistleblowers. Dr. Brown, how 
will the failure to protect whistleblowers like you impact the 
entire U.N. system? And why are whistleblowers at one U.N. 
agency subject to retaliation, if so, at another?
    And then I will ask Mr. Pooley, continuing on 
whistleblowers, if you could please comment on the impact on 
whistleblowers like yourself and Dr. Brown, both in a personal 
and in a professional capacity. How has it impacted you, Dr. 
Brown?
    Ms. Brown. Thank you. I think just looking at the U.N. more 
generally, there is the U.N. Secretariat which has a U.N. 
policy on whistleblowers, and then WIPO which has a separate 
one. And each, the different bodies have different tribunals 
where the staff go to take a complaint, for example. And the 
problem really faced by whistleblowers is that in the case of 
WIPO it will take 3 years before the tribunal will consider 
your case. So you will find yourself unemployed potentially or 
without a job for 3 years waiting for this tribunal to decide 
on whether you will be reinstated or not.
    This is why I took the decision to--I jumped before I was 
pushed.
    And then in terms of the vulnerability of whistleblowers, I 
think generally when it comes to reporting wrongdoing or 
allegations or wrongdoing by a U.N. agency head, we have to 
remember that the senior echelons of the U.N. the staff move 
around. This is a political situation, political body and 
political appointees. And, therefore, one staff member who is 
retaliated against in one organization may well face 
retaliation if they move to another organization. There is no 
protection for that across the system. There is not a uniform 
policy across the system.
    There is the ILO Tribunal for WIPO. There is the U.N. 
Dispute Tribunal for the U.N. Secretariat. And staff easily get 
caught in the morass, and there is very little that can, that 
can be done if you are a staff member. Once the retaliation 
starts it is difficult to respond to.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Pooley.
    Mr. Pooley. Thank you, Chair Ros-Lehtinen. At WIPO, like 
other U.N. agencies, staff are prohibited from speaking with 
the outside world except by permission. And because of this 
confidentiality and secrecy, this cone of silence that is 
imposed on staff members who are naturally fearful of losing 
their jobs, the only way that we will ever learn of misconduct 
within these organizations is from whistleblowers who are 
prepared, notwithstanding those challenges, to come forward.
    At this point, given what has happened with WIPO, many 
others within the U.N. system are watching what is going to 
ultimately happen as a result of what we have done here. And in 
the event that we don't achieve something useful, you may be 
looking at the last U.N. whistleblowers ever to come forward.
    Ms. Ros-Lehtinen. That is what I worry about as well. Thank 
you.
    And finally, Mr. Pooley, you mentioned that you gave Mr. 
Gurry a risk analysis, which he rejected, of his secret plan to 
open offices in Russia and in China. What did you tell Mr. 
Gurry about the risks of putting offices in these countries? 
How do the risks impact WIPO's mission of protecting 
intellectual property? And did Gurry understand that he might 
be aiding and abetting violations of U.S. sanctions with the 
transfers to Iran and North Korea?
    Mr. Pooley. Thank you. The transfers to North Korea were 
separate from the risk analysis that we did. But that, that 
effort was a more or less standard management tool where you 
look at some operation or proposed operation and you identify 
all the things that can go wrong and what their effects would 
be, and whether or not you can mitigate them, or if there is 
some irreducible level of risk that you can't get rid of. That 
was the process that I assembled a team to do with respect to a 
particular office that he wanted to open in China. And I 
presented that to him. And his response was to come back to me 
with a note that said stop that work.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. It is just 
incredible.
    Mr. Smith. I know.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much. And let me admit I am 
not personally equipped with all the knowledge that I need to 
analyze what your testimony is about today, so I am going to 
ask you some fundamental questions. And that is the purpose of 
WIPO itself as an organization, first of all, it is an official 
United Nations organization. And that is right. Okay.
    And the purpose of it is what? Is it to prevent, is it to 
prevent the theft of American or other people's intellectual 
property in certain countries? Or is it--and what is the other 
purposes then, if not that?
    Mr. Pooley. In general the purpose of WIPO is not to deal 
with issues of enforcement of intellectual property rights. 
Instead, WIPO exists to facilitate the acquisition in the 
international sphere of intellectual property rights that are 
essentially national in character.
    There is no international patent. There is no international 
copyright. There is no international trademark. But we have a 
system at WIPO that allows you to use it as a portal to get 
access in a much easier and more efficient way to these 
national rights and bundle them much more easily and 
efficiently. That is what it does. And it actually does that 
very, very well. The Patent Cooperation Treaty that I oversaw--
--
    Mr. Rohrabacher. So it does not protect the American 
inventor who has a patent, that is not their purpose?
    Mr. Pooley. It is not their purpose to enforce any 
inventors' intellectual property rights; correct.
    Mr. Rohrabacher. And it is only, and it is designed then to 
facilitate the transfer of technology that if it is not owned 
what, isn't it fair game then that people take what is not 
owned?
    Mr. Pooley. It is not part of their mission to deal with 
the enforcement or what you do when someone steals someone 
else's intellectual property rights. What they, what they 
handle is the acquisition of those rights in the first place 
and making it easier to do that.
    Enforcement has to happen with the courts of countries that 
recognize those rights. And sometimes those are cross-border 
disputes.
    Mr. Rohrabacher. Yes, I am--quite frankly this is all a 
little confusing to me. And I----
    Mr. Pooley. I can understand.
    Mr. Rohrabacher [continuing]. And I consider myself someone 
who knows a lot about our own patent system.
    Mr. Pooley. I know that.
    Mr. Rohrabacher. And this, so this organization is aimed at 
trying to, how would you say, regulate or to be able to have an 
overview of technology that is being transferred from one 
country to another?
    Mr. Pooley. It doesn't deal directly in technology 
transfer. But what it does is bring together, in the case of 
the Patent Cooperation Treaty, 148 countries from around the 
world, all of whom have agreed to take an application that is 
submitted to WIPO as if it was one of their own, and to 
recognize it when it comes to their country. And that gives 
those who want to acquire rights among a number of countries a 
much more efficient way to go about it. And they get an extra, 
they get 30 months to decide before they have to start spending 
the money on any particular national application.
    So it is about acquisition. People in the U.S. often start 
out at the U.S. PTO and file their application there. They have 
a year then to file that application with WIPO, which gives 
them an additional period of time within which to think about 
it, develop the technology before they go in and spend the 
money to get patents in another jurisdiction. That is what it 
is good at.
    Mr. Rohrabacher. And but it is not dealing directly with 
people in other countries that are engaged in theft, actual 
hacking in and stealing someone's technology; is that right?
    Mr. Pooley. That is correct. It doesn't, it doesn't deal 
with those issues.
    Mr. Rohrabacher. Doesn't do that. Okay.
    And if, indeed, what we are talking about then is trying to 
facilitate transfers, why would they want to have it secret 
that they have an agreement or they are negotiating with 
Beijing and Moscow to open up some kind of office there? 
Wouldn't that facilitate discussions? And why would someone 
want to keep that secret?
    Mr. Pooley. All I can tell you is what Mr. Gurry told me, 
which is that if people knew that he was doing this the flood 
gates would open and he wouldn't be able to get it done. It was 
for political purposes that he did this in a way that it could 
be presented as a fait accompli. That is my understanding.
    Mr. Rohrabacher. But in reality, do you see anything 
philosophically or morally or legally wrong with opening up an 
office in Beijing and Moscow to actually have someplace to step 
forward with your claims, if nothing else?
    Mr. Pooley. Well, having a, having a WIPO office in Beijing 
I felt was at least, at least nominally justifiable because at 
the time China was the fastest growing customer of the 
international patent system and other systems. And it would 
make sense, it seemed to me, to have a customer service office 
there.
    I have a lot more trouble understanding the office in 
Russia because it didn't seem to meet any of those kinds of 
guidelines. But then we were not asked our opinion on the 
senior management team, this was just a decision by Mr. Gurry.
    Mr. Rohrabacher. And we are talking about now there was a 
transfer of some kind of equipment and technology that was 
part, to North Korea. What was that equipment that we are 
talking about?
    Mr. Pooley. That equipment consisted of a, at least among 
other things, a high-end server, a very, very fancy printer, a 
24-terabyte disc array, a memory device that is, and an 
electronic firewall, the only purpose of which was to keep 
North Korea citizens from using this equipment to access the 
Internet. All of that was transferred, ostensibly, in order to 
support the North Korean Patent Office in its efforts to 
modernize its technology.
    Mr. Rohrabacher. And, okay, so we know that. I guess what 
we are saying then, if a country is known to be a thief and 
knowingly been involved or at least maybe not directly but they 
are letting this happen, like North Korea, they steal 
intellectual property, or is it the fact that they are 
preceding with a nuclear weapons program? What is the reason 
for singling out North Korea and Iran, for example?
    Mr. Pooley. Yes. Whether or not a country seems to be 
encouraging or allowing the theft of intellectual property is 
not an issue, and probably shouldn't be an issue, when it comes 
to just whether or not you support their Patent Office so that 
they can be part of the international community.
    Mr. Rohrabacher. Right.
    Mr. Pooley. But whether or not they are using or could use 
equipment that you send to them to help their Patent Office for 
some other purpose that would violate U.N. Security Council 
sanctions or would violate the intention of U.S. export 
controls----
    Mr. Rohrabacher. Right.
    Mr. Pooley [continuing]. That is very much a concern.
    Mr. Rohrabacher. It is export control and it is United 
Nations sanctions that this organization then will be conscious 
of in terms of enforcing those type of restrictions, and not 
that there is a bunch of hackers up in North Korea who are 
coming in and stealing Boeing's secrets on or patents on how to 
build a wing for an airplane?
    Mr. Pooley. That is, that is not part of their mission to 
deal with that.
    Mr. Rohrabacher. All right. Well, thank you for your 
testimony today. I am still not fully satisfied that I 
understand the whole process. But I am glad you brought this to 
our attention.
    And I am also glad that you have stepped forward to try to 
have a public discussion on something that you felt was wrong 
and you were willing to courageously step forward, even though 
you could pay a personal price for it. And we want to thank you 
for that because we will, you know, we are so busy here. You 
know, you have got Chris over here who is the champion of human 
rights all over the world, every country, and we are so busy at 
times that we need, we certainly need people like yourselves to 
draw our attention to these things so that we can have a proper 
judgment of it and see if some legislation will help.
    So thanks for guiding us in that today.
    Mr. Pooley. Thank you.
    Mr. Rohrabacher. Thank you.
    Mr. Smith. Thank you very much.
    Let me just ask some concluding questions and then we will 
conclude the hearing. I remember, because I have been in 
Congress now for 36 years, when U.S. Attorney General Richard 
Thornburgh did extensive research and made landmark 
recommendations for U.N. reform. And that was back in 1993, 23 
years ago.
    I remember when he sat right where you sit and called for 
the establishment of Inspectors General; that there was no 
accountability; waste, fraud, and abuse were habitual in the 
U.N. It was degrading its image as well as the mission. And he 
was very, very eloquent. And he was one of our best Attorney 
Generals ever, Dick Thornburgh.
    So my question, you know, that I would like to ask: The 
U.N.'s response has been lackluster, I believe, when it comes 
to IGs in terms of real robust interventions and protections 
for whistleblowers. Are there other, as far as you know, other 
agencies where there is a better situation, where 
whistleblowers, while they may be seen as a nuisance, bring 
forward information that honorable and noble people will take 
and say this is a problem, we need to fix it?
    Because, frankly, we are going to do a great deal of 
follow-up on this. And I take to heart, as do the other chairs 
and ranking members who are here today, when you said that if 
you come forward, as you have done, and there is not a robust 
response on the part of Congress, that that could spell the end 
for whistleblowers coming forward because they know they will 
not be pushing on an open door but it will be a cul-de-sac to 
get in for them. We need to have your back. And I can assure 
you this chairman will do everything humanly possible.
    Because I remember Dick Thornburgh; he said, if we don't 
fix this, the U.N. is in serious trouble going forward. It is 
not a sustainable organization if we don't make sure that every 
dollar is accounted for and that policies are followed.
    And, again, as you pointed out, Dr. Parish, to suggest that 
they are not covered, they being WIPO, by U.N. sanctions--and 
Dr. Brown as well--is ludicrous. U.N. policies, Security 
Council policies have application for the world, not just for 
those who, you know, there is no immunity there. And we will 
follow up on that as well.
    But if you could speak to whether or not there is any other 
sister agency where there might be a better situation, if you 
would like to speak to that.
    Dr. Brown, you spoke of the 9 months, March to November 
2012, where you remained in close contact with the U.S. Mission 
in Geneva, and also kept staffers from this committee, of 
course, informed. When the U.S. Mission intervened do you 
recall how they intervened? Was it just a letter? Was it a very 
strong response? Was there any possible penalty affixed to it?
    I do write a lot of laws on human rights, and the 
trafficking laws, four of them now, including the Trafficking 
Victims Protection Act. There were a lot of people who didn't 
want that law because it had punitive sanctions. Our own civil 
rights laws, as you know, in the United States would not have 
had the kind of impact they have had if it wasn't for the 
threat of a sanction. And I think the greater the Sword of 
Damocles that hangs over the head of an agency or a state or a 
country, the better, so long as the sanctions are judiciously 
included and implemented.
    What did our representative do, Dr. Brown, if you could 
speak to that?
    And let me finally, if I could, Mr. Pooley, on Shanghai--I 
was just in Shanghai--what was the nature of the office that 
was opened there? Or was it in Beijing; did I mishear that?
    Mr. Pooley. The office ultimately that was opened was in 
Beijing.
    Mr. Smith. Oh, it was ultimately opened.
    Mr. Pooley. Yes.
    Mr. Smith. If you could, Dr. Brown and Dr. Parish.
    Ms. Brown. Thank you. Well, this morning I can only really 
comment on what I know and what I was told, which is 
essentially that the U.S. Mission made multiple representations 
to Mr. Gurry and demanded that he fully protect whistleblowers. 
I am not aware apart from that. And, of course, the U.S. 
Mission or the U.S. Government pursued the whistleblower policy 
which wasn't in existence at WIPO.
    But I'm not aware, I can't really comment on any other 
initiatives; I'm not aware of them.
    Mr. Smith. And the 15 percent contribution, because our 
contribution is de minimis anyway, only because so much of it 
is derived from patents, if I am not mistaken--what kind of 
impact would that have? Why not a 100-percent cut and some 
other action that says we are not kidding?
    And that is what kills me. You have put your lives, your 
careers on the line. And again, I say to my Australian friends, 
please take note: You are good friends and allies. This is an 
aberrant departure; hopefully it is an exception. There needs 
to be more introspection on the part of that great friend and 
ally.
    I like what you said: Friends don't let friends drive 
drunk. Well, friends don't let friends commit human rights 
abuses or back a bureaucrat who with impunity is misusing his 
authority.
    And, again, we invite him to come and testify. I can't wait 
to ask questions. We invited him today and they sent a note. I 
would rather have him in the flesh and let's hear their side of 
the story. It will be a briefing, not a hearing, and they could 
ask us, the chairs and ranking members, any questions they want 
to ask as well.
    Mr. Pooley. Well, Mr. Chairman, all I would say is we would 
very much welcome any kind of ``we really mean it'' consequence 
that Congress, working with the professionals at the State 
Department, can develop that would prevent these kinds of 
things from happening in the first place, and that would 
protect whistleblowers, give whistleblowers strong enough 
protection so that you can get the kind of information that you 
need in order to be able to engage in the oversight that you 
are supposed to do.
    Mr. Smith. Yes, Dr. Parish.
    Mr. Parish. Well, Mr. Chairman, thank you. I followed 
issues relating to the accountability of various different 
international organizations within the U.N. system, some are 
without, outside the U.N. system, and some that seem to be 
appended to the U.N. system like WIPO, for about the last 10 to 
12 years. And I am just going to offer some general 
observations in as far as they can be helpful to you.
    I would say that things are patchy and they have generally 
and gradually improved within the United Nations system. The 
United Nations Disputes Tribunal is one form of staff right 
protection, which is certainly better than what came before. 
And we found that in some cases the system of dispute 
resolution has, has improved, has become more public, and has 
created a, we hope, a more effective structure to protect staff 
rights, whistleblowers' rights. But it is patchy. It is not 
perfect.
    But the real bottom of the barrel, if I can describe it 
like that, sir, are cases where there are organizations which 
sit on the outskirts of the United Nations system, like WIPO, 
over which the hands of tradition may be more for loss of 
public scrutiny of any kind whatsoever, which have kind of 
fallen away. And the danger you find with an organization like 
that is that they might become captured by any one particular 
individual who doesn't frankly have, may not have model 
scruples of any particular kind, and may not be at all 
committed to the goals of transparency and accountability, in 
which case the danger in a case like that is that the 
organization may simply be run off, run away with by such 
person and ends up who knows where.
    And it might be that the committee concludes on the basis 
of the evidence it has heard today that WIPO is an organization 
in that category.
    Now, as to the question of what the committee can do, I am, 
certainly my own view is that although, yes, the 15 percent cut 
is effectively de minimis for reasons of WIPO's funding, 
nonetheless the message of Congress is going to be an extremely 
important one because U.S. entrepreneurs and businesses are 
major users of WIPO. And, therefore, the United States does 
have a very, very strong voice. And a 100 percent cut is one 
option.
    But in any event, a public statements of censure in the 
strongest possible terms is something that is going to cause 
people to say, hang on, this is an important organization. My 
own view is that it has an extremely important mandate which is 
to promote intellectual property rights worldwide. The basic 
idea is that a U.S. entrepreneur can obtain some sort of patent 
pending protection in many of the jurisdictions through 
applying with WIPO. It is a very important mandate to promote 
the obvious goals of intellectual property advancements.
    And perhaps what is necessary is that some public light of 
scrutiny is shone into what the organization is doing, and that 
is something which I respectfully suggest it would be most 
appropriate for Congress to do.
    Thank you, sir.
    Mr. Smith. I just have one last question and then any 
concluding comments, if you would like. Anything that my 
colleagues and I may have missed or not asked, please speak 
out.
    Dr. Brown, you mentioned that Mr. Gurry ``decided not to 
renew my contract.'' It will ``take over 3 years of litigation 
in the International Labour Organization's Administrative 
Tribunal'' before being granted a hearing, as WIPO, like most 
international organizations is immune to national laws. 
``During that period, I would not have a salary,'' you said, 
``and would most likely not have been allowed by the Swiss 
Government to remain in Geneva, where my children are 
schooled.''
    Let me ask you, even with a hearing, how much longer would 
it have taken for them to adjudicate the case and render an 
opinion?
    And then, is that standard operating procedure that it 
takes so long to get a hearing, and meanwhile you are out of a 
job?
    That seems to me--``justice delayed is justice denied''--
that seems to me that that is a de facto advantage to the 
offending party because you don't have a right of recourse 
there.
    Ms. Brown. Thank you. Yes. I think you have summarized the 
situation accurately. Essentially if you go through the 
Tribunal, you will find that it is 3 years, most likely it will 
take 3 years before your case is heard. And during that time 
you will be waiting to find out what happens. You will be 
unemployed probably or you have to look for----
    Mr. Smith. And there is no provision to continue your 
employment pending the outcome of the case?
    Ms. Brown. No.
    Mr. Smith. Wow.
    Ms. Brown. And the ILO Tribunal can order reinstatement. So 
at WIPO, after 3 years if you win your case you could be 
reinstated. But there again, the Director General would have to 
implement what the Tribunal orders. And in the case of Mr. 
Gurry, on occasion that has not occurred.
    I would then add that in the U.N. system it is probably a 
little bit faster. But the problem there is that the Tribunal 
does not necessarily order the reinstatement and it is the 
Secretary General who decides whether or not his staff member 
is reinstated. And in practice, what happens is that the staff 
member is usually given a small payout.
    So whichever system you look at, it doesn't work well for 
whistleblowers. And I would like to emphasize that the 
situation in general, probably, whistleblowers across the U.N. 
system, and it may have improved in some respect, but where 
this problem is really exacerbated is where the allegations of 
wrongdoing involve the U.N. agency head. There the system just 
doesn't work.
    Mr. Smith. Thank you.
    Mr. Pooley. If I may add, Chairman, the problem that you 
have identified is a very serious one. The way that the system 
is set up now encourages the agency to not only take a position 
against a staff member, but to string it out for as long as 
possible.
    And I have to say that, again I have been a lawyer for a 
long, long time, and I know that there is a certain view of the 
law that focuses on procedure and delay. And I think Dickens 
gave us some really good examples of it. Some of what happened 
in Bleak House, you find repeated and worse at WIPO.
    In terms of focus on tiny distinctions in procedural issues 
in order to try to produce the longest possible delay to the, 
to the detriment of the staff member. And basically, as you 
said, it becomes so delayed that there is no possibility of 
reasonable justice. Mr. Gurry used to be the organization's 
legal counsel. And he is very well-versed in how to take 
advantage of these procedural rules.
    Mr. Smith. I do have one final question. And that is, is 
there anything or any provision in the founding documents that 
established WIPO that protects personnel from retaliation other 
than these long, drawn-out, the Tribunal process for example?
    And can a member, can member states table a resolution 
perhaps at the Assembly to reform WIPO to get it right, so 
that, you know, a hearing could be within 30 days or 60 days so 
that everything is on the table?
    Because I would think, and I do believe whistleblowers are 
one of the most noble and important groups of persons in any 
organization. They are the canaries in the coal mine. If there 
is a problem and somebody comes forward, corrective action can 
be taken.
    And I would think that the way you have been misdealt with 
has had a chilling effect on anybody else in WIPO coming 
forward. As they say, except for the grace of God, there goes 
I; jobless because of your courage.
    Is there anything can be done? Is there anything in the 
founding documents? And again, can a member state like America, 
the United States, table a resolution that would reform this 
flawed system?
    Mr. Pooley. Thank you, Mr. Chairman. Indeed, if I would 
leave you with one final thought it is that WIPO belongs to the 
U.S. and the other member states. It is up to them, if they 
don't like what they see in how it is being governed, to change 
it. And one of the most impactful ways to change that and 
resolve some of the concerns that we have seen here would be to 
ensure that staff members have a legitimate, easy to use, and 
fair way to get their problems and issues resolved.
    And for whistleblowers, as I have said earlier, that really 
needs to include external independent arbitration. Thank you.
    Mr. Smith. Thank you. Thank you.
    Dr. Brown or Dr. Parish, any final comments?
    Ms. Brown. I would agree with what Mr. Pooley says. 
External arbitration is really vital. And at the moment it is 
denied to U.N. staff across the system.
    Mr. Parish. One final remark from me, Mr. Chairman. The 
problem in WIPO, specific to WIPO, is that there are internal 
rules and procedures but they all start and finish at the end 
of the day with the Director General. So if you have got a 
complaint against the Director General there is absolutely 
nothing you can do because he can, and he will, be able to 
block you at absolutely every touch and turn. And that may well 
be, sir, why we are here giving evidence before you today.
    Mr. Smith. Thank you so very much. I can assure you we will 
follow up. You have provided enormous insight and wisdom to the 
committees. And we need to come up with an action plan.
    The hearing is adjourned.
    [Whereupon, at 3:39 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa
            
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      

Material submitted for the record by Mr. James Pooley, attorney at law 
     (former Deputy Director for Innovation and Technology, World 
                  Intellectual Property Organization)
                  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre></body></html>
